SIGAR                                          Special Inspector General for
                                                Afghanistan Reconstruction




   OFFICE OF SPECIAL PROJECTS



DEPARTMENT OF STATE ASSISTANCE TO
AFGHANISTAN: $4 BILLION OBLIGATED
BETWEEN 2002 AND 2013



  This product was completed under SIGAR’s Office of Special Projects, the Special
 Inspector General’s response team created to examine emerging issues in prompt,
  actionable reports to federal agencies and the Congress. The work was conducted
pursuant to the Special Inspector General’s authorities and responsibilities under the
        National Defense Authorization Act for FY 2008 (Pub. L. No. 110-181).




                                                      APRIL 2014
                                                                             SIGAR-14-49-SP
                                                                                       April 14, 2014


Congressional Committees:

Congress appropriated $96.57 billion between fiscal year (FY) 2002 and FY 2013 for Afghanistan
reconstruction, principally for the Departments of Defense (DOD) and State (State) and the United
States Agency for International Development (USAID).

DOD, State, and USAID rely extensively on contractors and other implementing partners to undertake
reconstruction projects in Afghanistan. To provide more effective oversight and to meet our reporting
requirements to monitor contracts and reconstruction activities in Afghanistan, the Office of the
Special Inspector General for Afghanistan Reconstruction (SIGAR) has requested information from
U.S. government agencies concerning how and where U.S. funds appropriated for the reconstruction
of Afghanistan are spent. In February 2013, SIGAR issued an inquiry requesting that all U.S.
Government agencies conducting reconstruction activities in Afghanistan provide comprehensive
information on all contracts, grants, and cooperative agreements awarded for those activities, from
fiscal year 2002 through the date of the inquiry. This report provides an analysis of the information
obtained in State Department’s response. This report does not include any recommendations. SIGAR
is presenting this data here to inform Congress and the U.S. taxpayer how their reconstruction
dollars are being spent in Afghanistan.

My office found that State Department data for contracts, grants, and cooperative agreements
awarded prior to calendar year 2005 included some entries that were not clearly related to
reconstruction in Afghanistan. However, State data for contracts, cooperative agreements, and
grants issued after 2005 are considerably more reliable and, after careful analysis, we were able to
identify contracts relevant to Afghanistan with a reasonable level of confidence.

We concluded this analysis in January 2014. This product was completed under SIGAR’s Office of
Special Projects, the SIGAR response team created to examine emerging issues in reports to federal
agencies and the Congress. The work was conducted under the authority of Public Law No. 110-181,
as amended; the Inspector General Act of 1978; as amended.




                                                              Sincerely,



                                                              John F. Sopko
                                                              Special Inspector General
                                                                 for Afghanistan Reconstruction
LIST OF COMMITTEES

The Honorable Buck McKeon                                  The Honorable Carl Levin
Chairman                                                   Chairman
The Honorable Adam Smith                                   The Honorable James Inhofe
Ranking Member                                             Ranking Member
Committee on Armed Services                                Committee on Armed Services
U.S. House of Representatives                              United States Senate
2120 Rayburn House Office Building                         228 Russell Senate Office Building
Washington, D.C., 20515                                    Washington, D.C., 20515

The Honorable Ed Royce                                     The Honorable Robert Menendez
Chairman                                                   Chairman
The Honorable Eliot Engel                                  The Honorable Bob Corker
Ranking Member                                             Ranking Member
Committee on Foreign Affairs                               Committee on Foreign Relations
U.S. House of Representatives                              United States Senate
2170 Rayburn House Office Building                         444 Dirksen Senate Office Building
Washington, D.C., 20515                                    United States Senate
                                                           Washington, D.C., 20515

The Honorable Rodney Frelinghuysen                         The Honorable Richard Durbin
Chairman                                                   Chairman
The Honorable Peter Visclosky                              The Honorable Thad Cochran
Ranking Member                                             Ranking Member
Committee on Appropriations,                               Committee on Appropriations,
Subcommittee on Defense                                     Subcommittee on Defense
U.S. House of Representatives                              United States Senate
H-405, The Capitol                                         122 Dirksen Senate Office Building
Washington, D.C., 20515                                    Washington, D.C., 20515

The Honorable Kay Granger                                  The Honorable Patrick Leahy
Chairman                                                   Chairman
The Honorable Nita Lowey                                   The Honorable Lindsey Graham
Ranking Member                                             Ranking Member
Committee on Appropriations, Subcommittee                  Committee on Appropriations,
on State, Foreign Operations, and Related Agencies         Subcommittee on State, Foreign Operations,
U.S. House of Representatives                              and Related Programs
HT-2, The Capitol                                          United States Senate
Washington, D.C., 20515                                    127 Dirksen Senate Office Building
                                                           Washington, D.C., 20515

The Honorable Darrell Issa                                 The Honorable Thomas Carper
Chairman                                                   Chairman
The Honorable Elijah Cummings                              The Honorable Tom Coburn
Ranking Member                                             Ranking Member
Committee on Oversight and Government Reform               Committee on Homeland Security and Governmental
U.S. House of Representatives                              Affairs
2157 Rayburn House Office Building                         United States Senate
Washington, D.C., 20515                                    340 Dirksen Senate Office Building
                                                           Washington, D.C., 20515




SIGAR-14-49-SP Afghanistan Contracts: State Contracts, Cooperative Agreements, and Grants               Page 2
Summary

According to SIGAR analysis of Department of State data, State obligated nearly $4 billion for
reconstruction in Afghanistan between the beginning of fiscal year 2002 and March 2013.1 State
awarded reconstruction funding through contracts, grants, and cooperative agreements. Recipients
of State reconstruction awards included for-profit entities, non-profit non-governmental organizations
(NGOs), and individuals.

State awarded 1,874 contracts, grants, and cooperative agreements to 771 organizations and
individuals. Nearly 90 percent of awards by total award amount were issued for the governance and
rule of law project sector, which includes peace-keeping initiatives and activities intended to develop
the Afghan National Police and the Afghan judiciary system. Other project sectors for State
Department funding included land mine removal,2 support to cultural activities and civil society,
education, humanitarian aid, human rights, and economic development.3

Contracts accounted for the majority of State reconstruction funds by total value, with $3.5 billion.
See page 5 for more detail on State Department Afghanistan reconstruction contracts. Grants
accounted for a total of $350.7 million. See page 7 for more detail on State reconstruction grants in
Afghanistan. Cooperative agreements accounted for a total of $108.8 million of total State
Department reconstruction funds for Afghanistan. See page 6 for details on State reconstruction
cooperative agreements.

The top recipient of State reconstruction funding by total awards was Dyncorp International Limited
Liability Corporation (Dyncorp). Dyncorp received approximately $2.8 billion in contracts, accounting
for 69 percent of total State Department reconstruction awards. The majority of Dyncorp contracts
were for governance and rule-of-law activities such training and equipping the Afghan National
Police. Dyncorp contracts included police trainers, construction of police infrastructure, and fielding
police equipment and vehicles. PAE Government Services Incorporated (PAE) received the second-
largest amount of total State reconstruction awards, receiving $598 million in contracts. PAE
contracts supported development of the rule of law, including police training, counternarcotics
advising, and justice sector development.

Of the total reported awards between the beginning of fiscal year 2002 and March 2013, 98 percent
of awards by total value were scheduled to be complete by the end of calendar year 2013.




1 The Department of State submission included awards with start dates through March, 2013.
2 Land mine removal includes activities intended to remove or destroy anti-personnel land mines and other hazardous explosive ordinance
from/in Afghanistan. Mine removal activities also include efforts to build Afghan mine removal capacity.
3 See Appendix II for a description of the project sectors identified by SIGAR.




SIGAR-14-49-SP Afghanistan Contracts: State Contracts, Cooperative Agreements, and Grants                                      Page 3
Background

State funds its reconstruction activities in Afghanistan through the International Narcotics Control
and Law Enforcement account, Foreign Military Financing; the International Military Education and
Training program; Non-Proliferation, Antiterrorism, Demining, and Related Programs Account;
Migration and Refugee Assistance; Voluntary Peacekeeping; and the Emergency Refugee and
Migration Assistance fund.

State utilizes reconstruction funds to:
         build or rebuild the economic and governmental infrastructure of Afghanistan;
         establish training, advising, and outreach programs to increase the capacity of the Afghan
          government;
         cultivate Afghan civil society, national identity, and culture;
         deliver relief assistance to the people of Afghanistan; and
         provide security or other support functions to facilitate reconstruction efforts.

State awards legal instruments including contracts, grants, and cooperative agreements to for-profit
corporations, NGOs, and individuals to carry out reconstruction activities in Afghanistan.
In general, U.S. Government agencies use contracts to acquire property or services for the direct
benefit or use of the U.S. government.4 U.S. Government agencies use grants and cooperative
agreements to transfer things of value to the grant and cooperative agreement recipients in order to
carry out a public purpose authorized by a law of the United States.5 Grants are appropriate when
the U.S. agency does not expect to be substantially involved in carrying out the project or activity.
Cooperative agreements are appropriate when the awarding agency expects to be substantially
involved in carrying out the objective of a given project.6




4 31 U.S.C. § 6303.
5 31 U.S.C. § 6304; 31 U.S.C. § 6305..
6 Agencies may award cooperative agreements and grants to individuals, organizations, nonprofit, or for-profit entities. However, if a for-

profit entity is awarded a cooperative agreement or grant, it may not earn a profit.




SIGAR-14-49-SP Afghanistan Contracts: State Contracts, Cooperative Agreements, and Grants                                             Page 4
THE STATE DEPARTMENT REPORTED OBLIGATING NEARLY $4.0 BILLION IN
CONTRACTS, GRANTS, AND COOPERATIVE AGREEMENTS BETWEEN 2002 AND
MARCH 2013 FOR AFGHANISTAN RECONSTRUCTION

The State Department reported obligating approximately $4.0 billion in 1,874 contracts, grants, and
cooperative agreements for reconstruction in Afghanistan between the beginning of 2002 and March
2013. Of the $4.0 billion in total awards, the department reportedly obligated:
       $3.5 billion, or 88 percent of total awards, in 55 contracts;
       $350.7 million, or 8.8 percent of total awards, in 1,690 grants, and
       $108.8 million, or 2.7 percent of total awards, in 129 cooperative agreements.

In general, State department contracts supported large-scale rule-of-law projects such as police
training and equipping, while grants and cooperative agreements supported smaller-scale
governance and rule-of-law, civil society, humanitarian programs and activities. The sections below
provide more detailed analysis of the project sectors of State Department reconstruction funding and
to the different types of legal instruments used to implement them. Figure 1 illustrates the
distribution of obligated funds among contracts, cooperative agreements, and grants. Figure 2
illustrates the proportion of each type of legal instrument by individual award.




  Figure 1 – Department of State Contracts, Grants, and          Figure 2 – Department of State Contracts, Grants,
  Cooperative Agreements for Reconstruction in                   and Cooperative Agreements for Reconstruction in
  Afghanistan by total value obligated, 2002 – March 2013.       Afghanistan by total individual awards, 2002 –
                                                                 March 2013.




SIGAR-14-49-SP Afghanistan Contracts: State Contracts, Cooperative Agreements, and Grants                     Page 5
The Governance and Rule-of-Law Project Sector Had the Largest Proportion of Total
Awards, with $3.5 Billion, or 89 Percent of Total Awards

We identified seven project sectors for Department of State reconstruction awards in Afghanistan.
The project sectors include mine removal, governance and rule-of-law, support to cultural activities
and civil society, education, humanitarian aid, human rights, and economic development.7 The
governance and rule-of-law project sector had the highest amount of total awards with $3.5 billion,
of the $4.0 billion in total awards. Governance and rule-of-law projects include rule-of-law activities
such as counternarcotics programs and justice sector reform, peacekeeping initiatives, and
government outreach programs. Land mine removal programs had the second-largest proportion of
total awards with $150.7 million. Table 1 includes the total awards for each identified project sector
as well as the percentage of total awards.

Table 1 – Department of State Awards by Project Sector for
Reconstruction in Afghanistan 2002 – March 2013
                                     Value of         Percentage of
Project Sector                    Obligations                 Total
                                  ($ Millions)          Obligations
Governance and Rule-
                                      3,535.8                89.03%
of-Law
Land Mine Removal                       150.7                  3.79%
Cultural/Civil Society                  104.1                  2.62%
Education                                 79.7                 2.01%
Humanitarian Aid                          52.1                 1.31%
Human Rights                              46.8                 1.18%
Economic
                                           2.2                 0.06%
Development
Grand Total                           3,971.4                  100%           Figure 3 – Proportion of Department of State Afghanistan
                                                                              Reconstruction total obligations by Project Sector, 2002 to March
                                                                              2013




Approximately 98 percent of Department of
State Awards were scheduled to be complete
by the end of 20138

Of the 1,794 awards for which award end dates
were provided (95.7 percent of total reported
awards), approximately 98 percent were projected
to be complete at the end of calendar year 2013.
Of the Department of State contracts, grants, and
cooperative agreements awarded as of March
2013, those scheduled to be active after the end
of calendar year 2013 represented $60.7 million,
of the total $4 billion.
                                                                               Figure 4 – Department of State Afghanistan
                                                                               Reconstruction Awards reported complete at the end of
                                                                               Calendar Year 2013, FY 2002 to March 2013
7See    Appendix II for a description of the project sectors identified by SIGAR.
8   As indicated in the text, the department did not provide award end date information for all reported awards.




SIGAR-14-49-SP Afghanistan Contracts: State Contracts, Cooperative Agreements, and Grants                                     Page 6
The Top Five Recipients of State Reconstruction Funds Received Approximately $3.5 Billion
or 87 percent of Total Obligations

Our analysis of State data indicated that the top-five recipients of State Afghanistan reconstruction
awards by total obligations accounted for approximately $3.5 billion, or 87 percent, of total State
reconstruction obligations. State awarded the remaining 13 percent of obligations to 766 recipients,
who averaged about $676 thousand each in total obligations.9

Dyncorp International Limited Liability Corporation (Dyncorp) was the single largest recipient of State
department funds, receiving $2.8 billion in contracts, or 69 percent of total awards. Dyncorp
contracts dealt principally with training and equipping the Afghan National Police and
counternarcotics forces. Dyncorp contracts included police trainers, construction of police
infrastructure, and fielding police equipment and vehicles. Table 2 includes the top five recipients of
State reconstruction funds, including total awards by obligations and the percentage of total
Afghanistan reconstruction awards. Figure 5 demonstrates the percentage of total State
reconstruction awards received by each of the top five recipients. Appendix I includes a list of
organizations that received more than $5 million in total State Department awards for reconstruction
in Afghanistan.



Table 2 – Top Five Recipients of State Afghanistan Reconstruction
Funds by Total Obligations ($ Millions), 2002 to March 2013
                                                                 Total
Recipient                                                  Obligations
                                                           ($millions)
Dyncorp International Limited Liability
                                                               2,751.4
Company
PAE Government Services Incorporated                              597.8
Civilian Police International Limited
                                                                   53.6
Liability Company
Demining Agency For Afghanistan                                  28.3
Omran Consulting Company                                         22.8
Sub-Total (5)                                                $3,453.9
Remaining Awardees (766)                                        517.6
Grand Total (771)                                            $3,971.5
Note: Totals affected by rounding.                                                      Figure 5 – Percentage of Total State funding by
                                                                                        obligations for Top-Five Recipients, 2002 to April 2013.



State reported $3.5 billion in Contract Awards for Reconstruction in Afghanistan

Our analysis of State data identified 19 recipients of State reconstruction contracts in Afghanistan.
The 55 contracts awarded to these 19 recipients between 2002 and April 2013 totaled
approximately $3.5 billion.




9   Average includes a wide spectrum of total award amounts. Some recipients received awards for as little as $180.00.




SIGAR-14-49-SP Afghanistan Contracts: State Contracts, Cooperative Agreements, and Grants                                     Page 7
The top-five recipients of State Department Afghanistan reconstruction contracts by total award
amount accounted for 98 percent of contract awards and 87 percent of total State reconstruction
awards. Dyncorp International Limited Liability Company (Dyncorp) was the single largest recipient of
State department contracts for reconstruction in Afghanistan, receiving $2.8 billion in contracts, or
69 percent of total awards. Dyncorp contracts were focused on training and equipping the Afghan
National Police. Dyncorp provided police trainers, constructed police facilities, and fielded police
equipment and vehicles. PAE Government Services Incorporated (PAE) received the second-largest
amount of total contract awards with $598 million. PAE contracts supported development of the rule
of law, including police training, counternarcotics advising, and justice sector development. Table 3
includes the top five State contract award recipients in Afghanistan and each entity’s total award
amount, the percentage of total contract obligations, and the percentage of total obligations.

        Table 3 – State Department Afghanistan Reconstruction Contract Recipients as Reported, 2002
        to March 2013
                                                                Value of
                                                                             Percentage of    Percentage of
                                                                contract
          Recipient                                                          Total Contract           Total
                                                             Obligations
                                                                                Obligations      Obligation
                                                             ($ Millions)
          Dyncorp International Limited Liability
                                                                2,751.4            78.34%          69.28%
          Corporation
          PAE Government Services Incorporated                    597.8            17.02%          15.05%
          Civilian Police International Limited
                                                                    53.6            1.53%             1.35%
          Liability Corporation
          Omran Consulting .                                        22.8            0.65%             0.57%
          Najibullah Khushbin Construction
                                                                    19.8            0.56%              .50%
          Company
          Sub-Total (5)                                           3,445            98.11%          86.75%
          Remaining Recipients (14)                                66.5             1.89%           1.68%
          Grand Total (19)                                       $3,512               100          88.43%
         Note: Totals affected by rounding. Note: Totals affected by rounding.



The Department of State Reported About $351 million in Grant Obligations for Afghanistan
Reconstruction

Our analysis of State Department data identified 717 organizations or individuals that received
Department of State Afghanistan reconstruction grants between 2002 and March 2013. The
Department awarded 1,690 individual grants worth a total of approximately $351 million. The
average total grant award amount per recipient was $489 thousand; however, total award amounts
were as low as $180.00.

All of the top-five recipients of State Department grants for reconstruction in Afghanistan were
involved in land mine removal activities. The Demining Agency for Afghanistan (DAFA) was the top
recipient of State reconstruction grants in Afghanistan. DAFA is an Afghan non-governmental
organization (NGO) dedicated to removing the anti-personnel landmines buried throughout
Afghanistan during the previous periods of conflict in the country. DAFA received approximately $28
million in State reconstruction grants. The Organization for Mine Clearance and Afghan
Rehabilitation (OMAR), the second-largest recipient of State reconstruction grant funds in
Afghanistan, is another Afghan NGO dedicated to removing mines from the country. OMAR received
nearly $21 million in State reconstruction grants. Table 5 includes the top-five recipients of State
grants by total awards.


SIGAR-14-49-SP Afghanistan Contracts: State Contracts, Cooperative Agreements, and Grants                     Page 8
          Table 4 – State Department Afghanistan Reconstruction Grant Recipients, 2002 to June 2013
                                                               Value of
                                                                                 Percentage of   Percentage of
                                                                 grant
          Implementing Partner                                                           grant            total
                                                              obligations
                                                                                   obligations     obligations
                                                                 ($K)
          Demining Agency for Afghanistan                         28,283               8.06%            0.71%
          Organization for Mine Clearance and
                                                                  20,552               5.86%            0.52%
          Afghan Rehabilitation
          The Halo Trust                                          19,875               5.67%            0.50%
          Afghan Technical Consultants                            17,703               5.05%            0.45%
          Mine Clearance Planning Agency                          17,686               5.04%            0.45%
          Sub-Total (5)                                          104,399              29.68%            2.62%
          Remaining Recipients (712)                             246,605              70.32%            6.21%
          Grand Total (717)                                      350,704                100%            8.83%
         Note: Totals affected by rounding. Note: Totals affected by rounding.

The Department of State Reported $108.8 Million in Cooperative Agreement Awards for
Afghanistan Reconstruction

Our analysis of State Department data identified 59 recipients of State cooperative agreements for
reconstruction in Afghanistan. State awarded 129 cooperative agreements worth a total of $108.8
million.

The top-five recipients of State cooperative agreements by total awards received approximately $30
million, or 28 percent of the total amount of cooperative agreement awards and less than one
percent of total State Department reconstruction awards. The top recipient of State cooperative
agreements was Sayed Majidi Architecture and Design, an architectural firm that worked with the
Department of State to design and engineer the Afghanistan National Museum in Kabul. The firm
received $6.4 million through two Department of State Cooperative Agreements. International
Medical Corps, a non-profit organization, was the second-largest recipient of total State cooperative
agreement awards. International Medical Corps received approximately $6.2 million in agreements
to provide social and medical support to returning refugees. Table 4 includes the top ten recipients
of State Department cooperative agreements.

        Table 5 – State Department Afghanistan Reconstruction Cooperative Agreements, 2002 to March 2013
                                                                Value of
                                                                            Percentage of
                                                            cooperative                          Percentage of
                                                                              cooperative
          Recipient                                          agreement                                    total
                                                                               agreement
                                                             obligations                           obligations
                                                                               obligations
                                                                   ($Ks)
          Sayed Majidi Architecture and Design                    6,350               5.84%             0.16%
          International Medical Corps                             6,185               5.69%             0.16%
          International Rescue Committee,
                                                                  6,105               5.61%             0.15%
          Incorporated
          United Methodist Committee On Relief                   5,740                5.28%             0.14%
          Afghan Center                                          5,641                5.19%             0.14%
          Sub-Total (5)                                         30,021               27.60%             0.76%
          Remaining Recipients (54)                             78,749               72.40%             1.98%
          Grand Total (59)                                     108,769                100%              2.74%
         Note: Totals affected by rounding. Due to changes in procurement reporting during the reporting
         period, awards issued prior to 2007 are not fully captured.


SIGAR-14-49-SP Afghanistan Contracts: State Contracts, Cooperative Agreements, and Grants                         Page 9
Agency Comments

The Department of State reviewed a draft of this fact sheet and provided input to the final product.
The agency’s principal concern was that, due to changes in procurement reporting during the
reporting period, awards issued prior to 2007 may not be fully captured in the data that the agency
provided. SIGAR has noted this where appropriate, as indicated by State Department officials.




SIGAR-14-49-SP Afghanistan Contracts: State Contracts, Cooperative Agreements, and Grants      Page 10
        APPENDIX I: RECIPIENTS OF STATE DEPARTMENT RECONSTRUCTION FUNDS
        BY TOTAL AWARDS
        Thirty-one organizations received total State department reconstruction awards of more than $5
        million. Together, organizations receiving greater than $5 million in total awards accounted for 94
        percent of total State funding in Afghanistan.

        Table 6 – State Total Awards for Afghanistan Reconstruction Greater than $5 Million, 2002 to March 2013
                                                                            Value of Total Awards
Implementing Partner                                                                                                          Primary Activity
                                                                                     by Obligation
Dyncorp International Limited Liability Company                         $    2,751,391,412.62                              Police Development
                                                                                                                 Police Development, Judiciary
PAE Government Services Corporation                                     $      597,822,687.07                                     Development
Civilian Police International Limited Liability Company                 $        53,626,576.94          Counternarcotics Capacity Development
Demining Agency for Afghanistan                                         $        28,283,364.00                              Land Mine Removal

Omran Consulting                                                        $        22,784,067.83          Government Infrastructure Construction

Organization for Mine Clearance and Afghan Rehabilitation               $        20,552,000.00                              Land Mine Removal
The HALO Trust                                                          $        19,874,641.00                              Land Mine Removal
Najibullah Khushbin Construction Company                                $        19,794,371.20          Government Infrastructure Construction
Afghan Technical Consultants                                            $        17,703,075.00                              Land Mine Removal
Mine Clearance Planning Agency                                          $        17,686,237.00                              Land Mine Removal
Al Watan Construction Company                                           $        16,633,671.23          Government Infrastructure Construction
Mine Detection Dog Center                                               $        14,019,799.00                             Land Mine Removal
                                                                                                          Support for Gender Equality and other
Women for Afghan Women                                                  $        13,975,005.00                        Women’s Rights Programs
HUDA Development Organization                                           $        13,964,790.00                                Media Education
Clear Path International                                                $         9,998,530.00            Support for Victims of Violent Conflict
                                                                                                      Support for Human Rights Law Capacity in
Global Rights                                                           $         9,654,278.00                                      Afghanistan
Afghanistan Rehabilitation and Architecture Organized Company           $         9,193,780.27          Government Infrastructure Construction
Ronco Consulting Company                                                $         8,720,847.06                            Land Mine Removal
                                                                                                          Educational and Civil-Society Building
Cetena Group                                                            $         8,632,874.00                                        Programs
Government Media and Information Center                                 $         7,055,524.00                               Media Production
Shamshad Television                                                     $         6,795,025.00                                Media Production
                                                                                                       Design for Afghanistan National Museum
Sayed Majidi Architecture and Design                                    $         6,349,698.60                                         in Kabul
Hazardous Areas Life-Support Organization                               $         6,207,900.00                              Land Mine Removal
International Medical Corps                                             $         6,184,743.00          Medical Support to Returning Refugees
                                                                                                         Educational and Civil-Society Building
Educational Support Organization                                        $         6,167,543.70                                       Programs
International Rescue Committee, Inc.                                    $         6,105,253.00                 Support for Returning Refugees
Overseas Aircraft Support Incorporated                                  $         6,000,000.00         Support for ANP Helicopter Maintenance
United Methodist Committee On Relief                                    $         5,739,823.00                   Support to Returning Refugees
Afghan Center                                                           $         5,641,071.00                   Support to Returning Refugees
Church World Service                                                    $         5,487,032.00                       Provincial Health Programs
Sterling International Group, Limited Liability Company                 $         5,300,000.00                              Land Mine Removal

Total                                                                   $        3,727,345,620

        Note: Totals affected by rounding. Due to changes in procurement reporting during the reporting period, awards issued
        prior to 2007 are not fully captured.




        SIGAR-14-49-SP Afghanistan Contracts: State Contracts, Cooperative Agreements, and Grants                           Page 11
APPENDIX II: PROJECT SECTOR DESCRIPTIONS

SIGAR analysis identified seven project sectors for Department of State reconstruction funds in
Afghanistan. Those project sectors are defined in the following paragraphs.

Governance and rule-of-law – The governance and rule-of-law project sector includes State
Department-funded activities intended to improve and the reach and efficacy of the rule of law in
Afghanistan. Activities in the governance and rule-of-law sector include Afghan National Police
development, counternarcotics programs, justice sector reform, peacekeeping initiatives, and
government outreach programs.

Mine Removal – The Mine Removal project sector includes State Department-funded activities
intended to remove mines and hazardous unexploded ordinance from Afghanistan as well as
programs intended to build Afghan capacity to do so.

Cultural/Civil Society – The Cultural and Civil Society project sector includes State Department
activities intended to foster an independent and lively civil society in Afghanistan, to foster a shared
Afghan national identity, and/or to preserve and display national cultural and historical artifacts and
customs. Activities in the Cultural and Civil Society project sector include support for independent
media, support and cultivation of national sports programs, and support for museums and other
cultural institutions.

Education – The Education project sector includes State Department activities intended to build
Afghan educational institutions and capacity. Activities in the Education project sector include the
building of education infrastructure, teacher education and training, and tuition support for Afghan
students.

Humanitarian Aid – The Humanitarian Aid project sector includes State Department-funded activities
to provide economic, social, and logistical support to refugees and internally-displaced persons
returning to their home regions in Afghanistan.

Human Rights – The Human Rights sector includes State Department-funded activities to support
the social, legal, and economic equality for all Afghan citizens, regardless of gender, ethnicity, or
religion. Activities in the Human Rights project sector include activities to support women’s rights
and gender equality in Afghanistan through education and public outreach campaigns.

Economic Development – The Economic Development sector includes State Department-funded
activities to foster economic activity in Afghanistan. Activities in the Economic Development sector
include the small-scale provision of agricultural equipment and systems to Afghan farmers as well as
training on the provided items.




SIGAR-14-49-SP Afghanistan Contracts: State Contracts, Cooperative Agreements, and Grants        Page 12
                             The mission of the Special Inspector General for Afghanistan
         SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                             reconstruction of Afghanistan by conducting independent and
                             objective audits, inspections, and investigations on the use of
                             taxpayer dollars and related funds. SIGAR works to provide accurate
                             and balanced information, evaluations, analysis, and
                             recommendations to help the U.S. Congress, U.S. agencies, and
                             other decision-makers to make informed oversight, policy, and
                             funding decisions to:

                                         improve effectiveness of the overall reconstruction
                                          strategy and its component programs;
                                         improve management and accountability over funds
                                          administered by U.S. and Afghan agencies and their
                                          contractors;
                                         improve contracting and contract management
                                          processes;
                                         prevent fraud, waste, and abuse; and
                                         advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                             site (www.sigar.mil). SIGAR posts all publically released reports,
 Reports and Testimonies     testimonies, and correspondence on its Web site.




                             To help prevent fraud, waste, and abuse by reporting allegations of
 To Report Fraud, Waste,     fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
and Abuse in Afghanistan     hotline:
Reconstruction Programs                  Web: www.sigar.mil/fraud
                                         Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                         Phone Afghanistan: +93 (0) 700-10-7300
                                         Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                         Phone International: +1-866-329-8893
                                         Phone DSN International: 312-664-0378
                                         U.S. fax: +1-703-601-4065




                             Public Affairs Officer
            Public Affairs               Phone: 703-545-5974
                                         Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                         Mail: SIGAR Public Affairs
                                          2530 Crystal Drive
                                          Arlington, VA 22202
